No.

In the Supreme Court of the United States
JOHN DOE,
Applicant/Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
Application for an Extension of Time to File a
Petition for a Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit
APPLICATION TO THE HONORABLE JUSTICE
SAMUEL A. ALITO, JR. AS CIRCUIT JUSTICE

KARIN DOUGAN VOGEL
California Bar No. 131768
Sheppard Mullin Richter & Hampton LLP
501 West Broadway
19th Floor
San Diego, California 92101
(619) 338-6500
(619) 234-3815

WILLIAM B. MATEJA, Counsel of Record
Texas Bar No. 13185350
bmateja@sheppardmullin.com
JASON C. HOGGAN
Texas Bar No. 24083188
jhoggan@sheppardmullin.com
Sheppard Mullin Richter & Hampton LLP
2200 Ross Ave., Suite 2400
Dallas, Texas 75201
(469) 391-7415
(469) 391-7559 Fax
JOHN D. ELLIS
California Bar No. 269221
jellis@sheppardmullin.com
Sheppard Mullin Richter & Hampton LLP
Four Embarcadero Center
Seventeenth Floor
San Francisco, California 94111
(415) 434-9100
(415) 434-3947 Fax

SMRH:4844-5085-3794.1

September 10, 2019
Attorneys for Applicant/Petitioner

-1-

APPLICATION FOR AN EXTENSION OF TIME
Pursuant to Rule 13.5 of the Rules of this Court, Applicant John Doe hereby requests a
60-day extension of time within which to file a petition for a writ of certiorari in this case up
to and including Monday, November 25, 2019.
JUDGMENT FOR WHICH REVIEW IS SOUGHT
The United States Court of Appeals for the Fifth Circuit issued its opinion in this case
on June 27, 2019. (attached as Exhibit 1). No petition for rehearing was filed.
JURISDICTION
This Court will have jurisdiction over any timely filed petition for certiorari in this
case pursuant to 28 U.S.C. § 1254(1). Under Rules 13.1, 13.3, and 30.1 of the Rules of this
Court, a petition for a writ of certiorari without an extension of time would be due on or
before September 25, 2019. In accordance with Rule 13.5, this application is being filed more
than 10 days before that date.
REASONS JUSTIFYING AN EXTENSION OF TIME
The time to file a petition for a writ of certiorari should be extended for 60 days for
the following reasons:
1.

This case presents the Court with a unique and important opportunity to make

clear to lower courts whether a reduction in sentence under Fed. R. Crim. P. 35(b) should be
evaluated under factors different than those statutorily mandated for the imposition of
sentence. The Fifth Circuit’s decision effectively holds that it should not, which decision
runs counter to the law of a sister Circuit. See United States v. Grant, 636 F.3d 803 (6th
Cir. 2011).

2.

This case is cert-worthy. After Petitioner was originally sentenced, he

SMRH:4844-5085-3794.1

-2-

provided a herculean amount of assistance to law enforcement in a variety of criminal and
administrative investigations over a number of years. Despite placing the safety of Petitioner
and his family in significant risk for these efforts, Petitioner was never given any sentencing
benefit for that assistance, and the legal issue that Petitioner would raise to the Court is
related to the standard for sentencing under these circumstances. Thus, in addition to
resolving an aforementioned split in the Circuits, this case presents the Court with an
opportunity to remedy a clear injustice that could become commonplace if the Fifth Circuit’s
statutory interpretation is left unchecked.
3.

Notably, the undersigned law firm has been handling this case on a pro bono

basis. Initially, Petitioner indicated that he did not want to seek this Court’s review. After he
changed his mind, the undersigned set about to find competent appellate counsel to brief this
case. Given Petitioner’s indigency, this was not an easy task. However, appellate counsel has
now been procured and is ready to proceed, but additional time is necessary for them to
study the record below and the legal issues in the case and to prepare a petition.
4.

The extension of time is also necessary because of the press of other client

business. For example, the attorney who will draft the petition for certiorari also has the
following responsibilities in the coming months: a September 25, 2019 appellant’s opening
brief in Mares v. Swift Transportation Co. of Arizona, LLC (Ninth Cir. Case No. 19-55065);
a September 17, 2019 reply brief in support of a motion for judgment on the pleadings in
Dodson v. Smart & Final Stores LLC (Los Angeles Superior Court Case No. BC717307); a
September 20, 2019 reply brief in support of a motion to compel arbitration in Rodriguez v.
Tesla, Inc. (Alameda Superior Court Case No. RG19013428); a motion to challenge class
certification in Fritsch v. Swift Transportation Co. of Arizona, LLC (Central District of

SMRH:4844-5085-3794.1

-3-

certification in Fritsch v. Sw[ft Transportation Co. ofArizona, LLC (Central District of
California Case No. 5:17-cv-02226 VAP(KKx)); an October 15, 2019 reply brief in support
of a motion for judgment on the pleadings in Wasko v. Smart & Final Stores LLC
(Sacramento Superior Court Case No. 34-2017-00224484); and a motion for summary
judgment in McNutt v. Sw[ft Transportation Co. o_/Arizona, LLC (Case No. 3: 18-cv-05668BHS). A 60-day extension for the Applicant would allow Applicant's new appellate counsel
the necessary amount of time to effectively contribute to all open matters including
Applicant's petition as well as his other client business.
5.

Additionally, no prejudice would arise from the requested extension.
CONCLUSION

For the foregoing reasons, Applicant respectfully requests that this Court grant an
extension of 60 days, up to and including November 25, 2019, within which to file a petition
for a writ of certiorari in this case.
Respectfully submitted,

Texas Bar No. 13185350
bmateja@sheppardmullin.com
Jason C. Hoggan
Texas Bar No. 24083188
jhoggan@sheppardmullin.com
Sheppard Mullin Richter & Hampton LLP
2200 Ross A venue-Suite 2400
Dal las, Texas 75201
(469) 391-7415
(469) 391-7559 Fax
September 10, 2019

SMRH:4844-5085-3794.l

Attorneys for Applicant/Petitioner

-4-

